Additional Copies

To obtain additional copies of this report, visit the Web site of the Inspector
General of the Department of Defense at www.dodig.osd.mil/audit/reports or
contact the Secondary Reports Distribution Unit of the Audit Followup and
Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
(703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General of the Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
identity of each writer and caller is fully protected.
              Office of the Inspector General of the Department of Defense
Report No. D-2004-071                                                                     April 14, 2004
      (Project No. D2003AE-0078)

                 Strategic Management of Human Capital Reporting

                                         Executive Summary

Who Should Read This Report and Why? Civil Service managers, who are
responsible for strategic management of human capital reporting, should read this report.
This report addresses the adequacy of documentation submitted to the Office of the
Under Secretary of Defense for Personnel and Readiness to support DoD reported
progress against selected performance indicators and measures for accomplishing DoD
human capital goals and initiatives in the DoD Civilian Human Resources Strategic Plan
and the DoD Restructuring Plan.

Background. In August 2001, the Office of Management and Budget announced the
President’s Management Agenda, which is a strategy for improving the management of
the Federal Government, as well as service to American citizens. The President’s
Management Agenda contains five Government-wide initiatives, one of which is strategic
management of human capital. The Office of Management and Budget uses an Executive
Branch Management Scorecard to assess progress in meeting Executive agency or
department-planned goals and initiatives. The Office of Management and Budget rates
each Executive agency or department on an annual basis coincident to the budget
submission by using a “simple” grading system of red-yellow-green. The DoD Civilian
Human Resources Strategic Plan and the DoD Restructuring Plan delineate the DoD
goals and initiatives for improving the strategic management of human capital. The
Under Secretary of Defense for Personnel and Readiness reports DoD progress against
performance indicators and measures associated with DoD goals and initiatives to the
Office of Management and Budget on a quarterly basis. The Office of Management and
Budget briefs the President quarterly on reported progress in meeting Executive agency
or department goals and initiatives.

Results. For the DoD Civilian Human Resources Strategic Plan, the Office of the Under
Secretary of Defense for Personnel and Readiness generally had adequate documentation
to support DoD progress against FY 2002 and the first quarter FY 2003 performance
indicators and measures reported to the Office of Management and Budget. However, for
the June 2003 update to the DoD Restructuring Plan, the Office of the Under Secretary of
Defense for Personnel and Readiness, the Military Departments, and the Defense
agencies in the Fourth Estate, with the exception of the Air Force, did not have complete
supporting documentation for DoD reported progress in the Plan.* As a result, the Under
Secretary of Defense for Personnel and Readiness did not have assurance that the Military

*
    At the beginning of the audit, the FY 2002 and the first quarter FY 2003 performance indicators and
    measures for the DoD Civilian Human Resources Strategic Plan were the most current and associated
    documentation was generally adequate to support the human capital initiative portion of the December 31,
    2002, Scorecard. Therefore, we did not request additional documentation to validate updates for the June
    2003 Scorecard. After reviewing the Strategic Plan, we reviewed the June 26, 2003, update to the DoD
    Restructuring Plan, which was the most current version.
Departments and the Defense agencies in the Fourth Estate were accurately recording,
collecting, and reporting their progress towards meeting human capital initiatives
associated with the June 2003 update to the DoD Restructuring Plan. In addition, the
Under Secretary of Defense for Personnel and Readiness did not have assurance that the
progress reported to the Office of Management and Budget and assessed in the Executive
Branch Management Scorecard provided to the President was accurate. Requiring the
Military Departments and the Defense agencies in the Fourth Estate to submit support for
their progress in meeting human capital initiatives associated with the DoD Restructuring
Plan to the DoD Civilian Personnel Management Service for verification before DoD
reports the status of the initiatives to the Office of Management and Budget should bring
improvements needed to ensure that human capital progress is accurately recorded,
collected, and reported. (See the Finding section of the report for the detailed
recommendations.)

Management Comments and Audit Response. We received comments from the
Principal Deputy Under Secretary of Defense for Personnel and Readiness and a
representative of the Office of the Army Assistant Deputy Chief of Staff for Civilian
Personnel Policy. The Principal Deputy concurred with selected statements in the
finding and the recommendation to require the Military Departments and the Defense
agencies in the Fourth Estate to obtain support for their progress in meeting human
capital initiatives. However, the Principal Deputy did not concur with the
recommendation to require the DoD Civilian Personnel Management Service or a
designee to verify progress reported by the Military Departments and the Defense
agencies in the Fourth Estate. Instead, he suggested a corrective action that met the
intent of the recommendation.

The representative of the Office of the Army Assistant Deputy Chief of Staff agreed with
the finding and recommendations. (See the Finding section of this report for a discussion
of the management comments and the Management Comments section of the report for
the complete text of the comments.)




                                            ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               3

Finding
     Support for Reported Progress in Meeting DoD Human Capital Goals    4

Appendixes
     A. Scope and Methodology                                           12
          Prior Coverage                                                14
     B. Glossary                                                        15
     C. Navy Claimants                                                  17
     D. Fourth Estate Organizations                                     18
     E. Report Distribution                                             19

Management Comments
     Under Secretary of Defense for Personnel and Readiness             21
     Department of the Army                                             25
Background
    This report discusses DoD reporting on the President’s Management Agenda
    initiative for strategic management of human capital to the Office of Management
    and Budget. Specifically, we verified the adequacy of support for DoD reported
    progress against selected performance indicators and measures associated with
    the goals contained in DoD Civilian Human Resources Strategic Plan and the
    initiatives contained in the DoD Restructuring Plan. Although the General
    Accounting Office has issued several reports in the area of strategic management
    of human capital, it was unable to obtain DoD supporting documentation for DoD
    progress reported to the Office of Management and Budget. Appendix B provides
    a glossary of technical terms used in this report.

    President’s Management Agenda. In August 2001, the Office of Management
    and Budget announced the President’s Management Agenda, a strategy for
    improving the management of the Federal Government, as well as service to
    American citizens. The President’s Management Agenda contains
    five Government-wide initiatives:

           •   strategic management of human capital,
           •   competitive sourcing,
           •   improved financial management,
           •   expanded electronic government, and
           •   budget and performance integration.

    Executive Branch Management Scorecard. On October 30, 2001, the Director,
    Office of Management and Budget issued a memorandum stating that the Office
    of Management and Budget developed an Executive Branch Management
    Scorecard that shows assessments using a ”simple” grading system for the status
    and progress being made by an Executive agency or department to address the
    five Government-wide initiatives. The Office of Management and Budget, along
    with the Office of Personnel Management, conducts the assessments on an annual
    basis coincident to the budget submission. In addition, the Office of Management
    and Budget briefs the President quarterly on the progress by the Executive
    agencies and departments. The Under Secretary of Defense for Personnel and
    Readiness reports DoD progress against the performance indicators and measures
    associated with the five Government-wide initiatives to the Office of Management
    and Budget on a quarterly basis.

           Status Assessment. The Office of Management and Budget and the
    Office of Personnel Management assess the status of the strategic management of
    human capital initiative against standards for success. Those standards of success
    were developed and later revised by the Office of Management and Budget in
    collaboration with the Office of Personnel Management and the General
    Accounting Office and applied by each Executive agency and department. An
    Executive agency or department can receive a score of green, yellow, or red.
    Green means that all the standards for success have been met; yellow indicates
    that some, but not all, of the standards have been met; and red indicates that an

                                        1
Executive agency or department has any number of serious flaws in meeting the
standards for success.

         Progress Assessment. The Office of Management and Budget and the
Office of Personnel Management assess the progress an Executive agency or
department is making on a case-by-case basis against agreed-upon deliverables
and timeframes established for achieving the strategic management of human
capital initiative. An Executive agency or department can also receive a score of
green, yellow, or red for progress. Green means that implementation of the
initiative is proceeding according to plan; yellow indicates that an Executive
agency or department must make an adjustment to its plan to achieve the initiative
on a timely basis; and red signifies that an initiative is in serious jeopardy of not
being achieved as planned.

DoD Human Capital Goals and Initiatives. DoD human capital goals and
initiatives are contained in the DoD Civilian Human Resources Strategic Plan and
the DoD Restructuring Plan. DoD reports progress in meeting its goals and
initiatives to the Office of Management and Budget.

        DoD Civilian Human Resources Strategic Plan. Office of Management
and Budget Circular No. A-11, “Preparation, Submission, and Execution of the
Budget,” revised July 25, 2003, Part 6, “Preparation and Submission of Strategic
Plans, Annual Performance Plans, and Annual Program Performance Reports,”
requires Executive agencies and departments to submit a civilian human resources
strategic plan, an annual performance plan, and an annual program performance
report to the President, the Congress, and the Office of Management and Budget.
The DoD Civilian Human Resources Strategic Plan 2002-2008 imparts DoD
vision, values, goals, and objectives using a balanced scorecard approach. The
balanced scorecard provides financial and operational measures correlating with
the DoD vision, values, goals, and objectives. In addition, the DoD Civilian
Human Resources Strategic Plan contains seven goals that address the strategic
management of the human capital initiative. The DoD Civilian Personnel
Management Service, Office of the Under Secretary of Defense for Personnel and
Readiness, maintains an “evidence book” of all documentation to support DoD
reported progress in meeting the seven goals. After consolidating the data, the
DoD Civilian Personnel Management Service provides the data to the Under
Secretary of Defense for Personnel and Readiness who prepares and submits a
letter with suggested scores to the Office of Management and Budget.

                Annual Performance Plan. Office of Management and Budget
Circular No. A-11 requires that annual performance plan goals be based on the
strategic plan general goals. The annual performance plan establishes
performance goals that define the level of performance to be achieved during a
fiscal year; expresses the goals in an objective, quantifiable, and measurable
form; describes the processes to meet the performance goals; and establishes
performance indicators to be used in measuring or assessing the outputs and
outcomes of each activity.

              Annual Performance Report. Office of Management and Budget
Circular A-11 requires each Executive agency and department to submit an annual
performance report to the President and Congress. The annual report provides


                                      2
            information on an Executive agency and department’s actual performance and
            progress in achieving the goals and objectives in the strategic plan and annual
            performance plan.

                    Restructuring Plans. Office of Management and Budget Bulletin
            No. 01-07, “Workforce Planning & Restructuring,” May 8, 2001, required
            Executive agencies and departments to submit to the Office of Management and
            Budget a workforce analysis by June 29, 2001. The Executive agencies and
            departments used the workforce analysis as the baseline to develop restructuring
            plans that were submitted with their FY 2003 budget requests and annual
            performance plans to the Office of Management and Budget. The restructuring
            plans are to make the Government more citizen-centered by identifying, over a
            5-year period, the specific organizational changes that each Executive agency or
            department is proposing to:

                     •   reduce the number of managers,
                     •   reduce organizational layers,
                     •   reduce the time it takes to make decisions,
                     •   increase the span of control, and
                     •   redirect positions within the agency to ensure the largest number of
                         employees possible are in direct service delivery positions that interact
                         with citizens.

            The DoD Restructuring Plan, February 12, 2002, contains initiatives to address
            specific DoD organizational changes. Since February 12, 2002, the Office of the
            Under Secretary of Defense for Personnel and Readiness updated the DoD
            Restructuring Plan in September 2002 and June 2003, in the form of a DoD
            Restructuring Matrix. The restructuring matrix is used to report DoD progress in
            meeting the initiatives contained in the DoD Restructuring Plan. Through
            templates of the DoD Restructuring Matrix, performance management
            coordinators in the Military Departments and the Washington Headquarters
            Services, which reports for the Fourth Estate organizations,1 report the component
            progress in meeting the five initiatives to the DoD Civilian Personnel
            Management Service. The DoD Civilian Personnel Management Service prepares
            a single restructuring matrix for submission to the Office of Management and
            Budget.

Objectives
            The objective was to examine DoD reporting on the President’s Management
            Agenda initiative for strategic management of human capital to the Office of
            Management and Budget. Specifically, the audit verified the adequacy of support
            for DoD actions for selected performance indicators and measures established to
            accomplish DoD human capital goals. See Appendix A for a discussion of the
            audit scope and methodology, and prior coverage related to the audit objectives.

1
    See Appendix D for a list of the Fourth Estate organizations.


                                                        3
                    Support for Reported Progress in
                    Meeting DoD Human Capital Goals
                    For the DoD Civilian Human Resources Strategic Plan, the Office of the
                    Under Secretary of Defense for Personnel and Readiness generally had
                    adequate documentation to support DoD progress against FY 2002 and
                    the first quarter FY 2003 performance indicators and measures reported
                    to the Office of Management and Budget. However, for the June 2003
                    update to the DoD Restructuring Plan, the Office of the Under Secretary
                    of Defense for Personnel and Readiness, the Military Departments, and
                    the Defense agencies in the Fourth Estate, with the exception of the
                    Air Force, did not have complete supporting documentation for DoD
                    reported progress in the Plan.2 This condition occurred because the
                    Office of the Under Secretary of Defense for Personnel and Readiness did
                    not require the:

                             •   performance management coordinators within the Military
                                 Departments and the Defense agencies in the Fourth Estate to
                                 provide support for their reported progress in meeting human
                                 capital initiatives associated with the DoD Restructuring Plan
                                 and
                             •   DoD Civilian Personnel Management Service or a designee to
                                 verify the reported progress by the Military Departments and
                                 the Defense agencies in the Fourth Estate against supporting
                                 documentation to ensure the adequacy of reported progress
                                 associated with the DoD Restructuring Plan.

                    As a result, the Office of the Under Secretary of Defense for Personnel
                    and Readiness did not have assurance that the Military Departments and
                    the Defense agencies in the Fourth Estate were accurately recording,
                    collecting, and reporting their progress towards meeting human capital
                    goals associated with the June 2003 update to the DoD Restructuring
                    Plan reported to the Office of Management and Budget and assessed in
                    the Executive Branch Management Scorecard provided to the President.

Documentation Supporting Progress in Meeting DoD Civilian
  Human Resources Strategic Plan Goals
           The Office of the Under Secretary of Defense for Personnel and Readiness
           generally had adequate documentation to support DoD reported progress against


2
    At the beginning of the audit, the FY 2002 and the first quarter FY 2003 performance indicators and
    measures for the DoD Civilian Human Resources Strategic Plan were the most current and associated
    documentation was generally adequate to support the human capital initiative portion of the December 31,
    2002, Scorecard. Therefore, we did not request additional documentation to validate updates for the June
    2003 Scorecard. After reviewing the Strategic Plan, we reviewed the June 26, 2003, update to the DoD
    Restructuring Plan, which was the most current version.


                                                       4
FY 2002 and the first quarter FY 2003 performance indicators and measures in
the DoD Civilian Human Resources Strategic Plan 2002-2008.

DoD Civilian Human Resources Strategic Plan Goals. The DoD Civilian
Human Resources Strategic Plan 2002-2008 contains the following seven goals:

       •   promote focused, well-funded recruiting to hire the best talent
           available,

       •   provide a human resources system that ensures the readiness of
           tomorrow’s integrated force structure,

       •   promote and sustain an effective civilian workforce that is as richly
           diverse as America itself,

       •   invest in human capital to improve effectiveness of the workforce,

       •   provide management systems and tools that support total force
           planning and informed decision making,

       •   focus the human resources community on the needs of its customers,
           and

       •   promote quality of work life as an integral part of daily operations.

To meet the seven goals, the Office of the Under Secretary of Defense for
Personnel and Readiness prepared an annual performance plan that identified the
performance indicators and measures scheduled to be accomplished during that
annual fiscal year reporting period.

Strategic Plan Reported Progress. For FY 2002, DoD planned to complete
29 performance indicators and measures associated with the seven goals in the
DoD Civilian Human Resources Strategic Plan 2002-2008. In the FY 2002
Annual Performance Report, the Office of the Under Secretary of Defense for
Personnel and Readiness reported that DoD completed 26 of the 29 performance
indicators and measures associated with the seven goals. The Office of the Under
Secretary of Defense for Personnel and Readiness rescheduled the three
performance indicators and measures not completed in FY 2002, for completion
in FY 2003. For the first quarter of FY 2003, DoD completed 11 of the
41 performance indicators and measures scheduled for completion in FY 2003, of
which one had been carried over from FY 2002.

Strategic Plan Supporting Documentation. The DoD Civilian Personnel
Management Service maintained an “evidence book” of supporting
documentation for all completed performance indicators and measures. Our
review of the 26 performance indicators and measures completed in FY 2002 and
11 performance indicators and measures completed in the first quarter of
FY 2003 determined that the supporting documentation maintained by the DoD
Civilian Personnel Management Service supported the completion of the
performance indicators and measures for six of the seven DoD Civilian Human
Resources Strategic Plan goals. However, for the goal to promote and sustain an


                                     5
    effective civilian workforce that is as richly diverse as America itself, the DoD
    Civilian Personnel Management Service had, as documentation, an undated and
    unsigned memorandum, “Achieving a Diverse and Capable Civilian Workforce,”
    that the Under Secretary of Defense for Personnel and Readiness prepared to
    support the accomplishment of this goal. Therefore, it was unclear whether DoD
    accomplished this performance indicator and measure because the DoD Civilian
    Personnel Management Service did not have evidence to show that the
    memorandum had been signed, dated, and distributed.

Support For Progress in Meeting DoD Restructuring Plan
  Initiatives
    DoD Restructuring Plan. The Office of Management and Budget provided the
    DoD with guidance on preparing a restructuring plan to meet the President’s
    Management Agenda initiative to streamline Government organizations. The
    DoD Civilian Personnel Management Service provided restructuring matrix
    templates to the performance management coordinators at the Military
    Departments and Washington Headquarters Services to report progress in meeting
    the five initiatives in the DoD Restructuring Plan. The performance management
    coordinators provided the templates to their subordinate organizations for
    reporting progress in meeting the five initiatives. The subordinate organizations
    submitted the templates to the performance management coordinators who
    consolidated the organizations’ responses for submission to the DoD Civilian
    Personnel Management Service. The five initiatives in the DoD Restructuring
    Plan are:

           •   major headquarters reductions,

           •   planned reorganizations,

           •   reductions in the number of managers and supervisors,

           •   projected outsourcing efforts, and

           •   reengineered or streamlined processes resulting in efficiencies or
               savings.

    Restructuring Plan Reported Progress. To determine the accuracy of support
    for DoD reported progress in meeting its restructuring plan initiatives, we
    judgmentally selected for review two of the five initiatives for which the Military
    Departments and the Fourth Estate organizations reported progress in the June 26,
    2003, update to the DoD Restructuring Plan. Those initiatives were:

           •   major headquarters reductions and

           •   planned reorganizations.

    Based on the results of the review, the Office of the Under Secretary of Defense
    for Personnel and Readiness, the Military Departments, and the Defense agencies
    in the Fourth Estate, except for the Air Force, did not have complete

                                          6
            documentation to support DoD reported progress for the major headquarters
            reductions and planned reorganizations initiatives in the June 26, 2003, update to
            the DoD Restructuring Plan.

                    Department of the Army Reported Progress. The Office of the
            Assistant Secretary of the Army for Manpower and Reserve Affairs, the
            performance management coordinator for the Army, did not have adequate
            documentation to support the reported progress of the Army for the major
            headquarters reductions and planned reorganizations initiatives. To obtain the
            status on those two initiatives, the Office of the Assistant Secretary of the Army
            for Manpower and Reserve Affairs sent out a request to two offices to update
            their progress. The Office of the Assistant Secretary of the Army for Manpower
            and Reserve Affairs provided the Deputy Under Secretary of the Army
            memorandum, “Realignment Phase 2, Field Operating Agencies’ Implementation
            Plans,” January 29, 2003, that distributed a Secretary of the Army and Chief of
            Staff of the Army memorandum, same subject, November 26, 2002, as support for
            the reported progress of the Army towards accomplishing those two initiatives.
            The January 29, 2003, memorandum discussed the status of field operating
            agency implementation plans to accomplish the two initiatives. However, the
            Office of the Assistant Secretary of the Army for Manpower and Reserve Affairs
            did not have copies of the implementation plans showing that they had been
            approved and implemented. Further, neither the Army’s input to the DoD
            Restructuring Matrix nor the memorandum identified the percentage reduction in
            headquarters personnel that the Army had achieved or when the Army would
            achieve the 15 percent reduction in headquarters personnel directed by the
            National Defense Authorization Act for FY 2000.

                    Department of the Navy Reported Progress. The Office of the Deputy
            Assistant Secretary of the Navy for Civilian Human Resources, the performance
            management coordinator for the Navy, had complete documentation to support
            the reported progress of the Navy for the major headquarters reductions initiative,
            but not for the planned reorganizations initiative.

                           Major Headquarters Reductions Initiative. In the DoD
            Restructuring Matrix, the Navy reported a 9.4 percent reduction in major
            headquarters personnel from FY 1999 to FY 2002 and expects to achieve the
            15 percent reduction by the end of FY 2004. The Office of the Assistant Secretary
            of the Navy (Financial Management and Comptroller) provided documentation
            supporting the reported and planned reductions in Navy headquarters personnel.

                           Planned Reorganizations Initiative. The Office of the Deputy
            Assistant Secretary of the Navy for Civilian Human Resources did not have
            complete documentation to support the progress reported for planned
            reorganizations. To obtain the status on this initiative, the Office of the Deputy
            Assistant Secretary sent out a restructuring matrix template to 23 separate Navy
            claimants3 and requested that they update their progress in meeting the initiative.
            In response, the Office of the Deputy Assistant Secretary received reported
            progress from the Office of the Chief of Naval Education and Training; the Office
            of the Commander, Naval Reserve Force; and the Office of the Commander,
3
    See Appendix C for a list of the 23 Navy claimants.


                                                          7
           U.S. Atlantic Fleet. The Office of the Deputy Assistant Secretary combined those
           Navy claimant responses into a single restructuring matrix and submitted the
           matrix to the DoD Civilian Personnel Management Service. To verify support for
           the reported progress, we judgmentally selected the Office of the Commander,
           Naval Reserve Force and requested supporting documentation from that
           command and its subordinate reporting components. The Office of the
           Commander, Naval Reserve Force reported progress concerning staffing,
           management and training, savings associated with closure of organizations,
           financial services, savings associated with mergers and relocations, recruiting,
           and transfer of functions. However, the Office of the Commander, Naval Reserve
           Force incorrectly reported the accomplishment of reserve center mergers and
           relocations and did not provide complete documentation to support reported cost
           savings resulting from the disestablishment of the North Central and Mid-South
           Regions of the Naval Reserve Force Readiness Command.

                   Department of the Air Force Reported Progress. The Office of the
           Air Force Deputy Chief of Staff for Personnel, the performance management
           coordinator for the Air Force, had adequate documentation to support the reported
           progress of the Air Force for the major headquarters reductions and planned
           reorganizations initiatives. Within the Office of the Deputy Chief of Staff,
           individuals for 10 functional areas monitor the progress of the Air Force in
           implementing the five initiatives in the DoD Restructuring Plan. The Air Force
           Strategic Office for Personnel, Office of the Air Force Deputy Chief of Staff for
           Personnel consolidated the progress of the Air Force into a single restructuring
           matrix for each initiative and submitted it to the DoD Civilian Personnel
           Management Service. For the major headquarters reductions, the Air Force
           reported that a 15 percent reduction in headquarters personnel was being
           implemented. For the planned reorganizations initiative, the Air Force reported
           the implementation of a new Air Force combat wing. To verify support for the
           reported progress, we contacted the individuals responsible for each initiative and
           they were able to provide supporting documentation.

                   Fourth Estate Organizations Reported Progress. The Washington
           Headquarters Services, the performance management coordinator for the Fourth
           Estate, did not have adequate documentation to support Fourth Estate
           organizations reported progress for the major headquarters reductions and
           planned reorganizations initiatives. To obtain the status on those initiatives, the
           Washington Headquarters Services sent out a restructuring matrix template to 13
           of the 14 Defense subordinate reporting organizations4 that makeup the Fourth
           Estate and requested they update their progress in meeting the initiatives. The
           Washington Headquarters Services combined the 13 responses into a single
           restructuring matrix and submitted the matrix to the DoD Civilian Personnel
           Management Service. To verify support for the reported progress, we selected 6
           of the 10 organizations5 that reported progress in one or both of the initiatives to
           Washington Headquarters Services. Specifically, we selected the Defense

4
    Washington Headquarters Services did not provide a restructuring matrix template to the Defense Security
    Cooperation Agency, the remaining Fourth Estate organization, because it did not have the name of the
    performance management coordinator.
5
    The four Fourth Estate organizations not selected were the Defense Contract Audit Agency, the Defense
    Logistics Agency, the Defense Threat Reduction Agency, and the Office of the Secretary of Defense.


                                                       8
    Advanced Research Projects Agency, the Defense Commissary Agency, the
    Defense Contract Management Agency, the Defense Finance and Accounting
    Service, the Defense Information Systems Agency, and the Defense Security
    Service and requested supporting documentation from those organizations. Of the
    six organizations, only the Defense Advanced Research Projects Agency and the
    Defense Contract Management Agency responded to our request for supporting
    documentation.

                   Defense Advanced Research Projects Agency. In its status
    report to the Washington Headquarters Services, the Defense Advanced Research
    Projects Agency reported progress for the major headquarters reductions
    initiative; however, the calculations in its documentation did not support a
    15 percent major headquarters reduction.

                     Defense Contract Management Agency. In its status report to
    the Washington Headquarters Services, the Defense Contract Management
    Agency reported progress for the major headquarters reductions and the planned
    reorganizations initiatives. The agency did not provide documentation to support
    the FY 2000 staffing level, which was the base year used to calculate a 15 percent
    major headquarters reduction. Conversely, for the planned reorganizations
    initiative, the agency did provide documentation that adequately supported the
    reported progress concerning closure of 16 contract management offices from
    FY 2002 through FY 2003.

Effect on Human Capital Reporting
    Without complete supporting documentation, the Office of the Under Secretary of
    Defense for Personnel and Readiness did not have assurance that the Military
    Departments and the Defense agencies in the Fourth Estate were accurately
    recording, collecting, and reporting progress being made in meeting human
    capital initiatives associated with the DoD Restructuring Plan reported to the
    Office of Management and Budget and assessed in the Executive Branch
    Management Scorecard provided to the President.

Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. In response to comments by the Principal Deputy
    Under Secretary of Defense for Personnel and Readiness, we revised
    Recommendations 1. and 2. by replacing the phrase “subordinate reporting
    components” with “Military Departments and Defense agencies” to clarify the
    relationship between the Office of the Under Secretary of Defense for Personnel
    and Readiness and the Military Departments and the Defense agencies.




                                        9
We recommend that the Under Secretary of Defense for Personnel and
Readiness:

        1. Require the Military Departments and the Defense agencies in the
Fourth Estate to obtain support for their progress in meeting human capital
initiatives associated with the DoD Restructuring Plan before submission of
their accomplishments to the DoD Civilian Personnel Management Service.

Principal Deputy Under Secretary of Defense for Personnel and Readiness
Comments. The Principal Deputy concurred, stating that the Military
Departments and the Defense agencies should require and maintain supporting
documentation for reported progress in meeting human capital initiatives
associated with the DoD Restructuring Plan before they report their progress to
the DoD Civilian Personnel Management Service. The Principal Deputy also
stated that the DoD Civilian Personnel Management Service would, at a meeting
on March 31, 2004, provide the Military Departments and the Defense agencies
with guidance on the type and sufficiency of supporting documentation required.
For the complete text of the Principal Deputy’s comments, see the Management
Comments section of the report.

Army Comments. Although not required to comment, a representative of the
Office of the Army Assistant Deputy Chief of Staff for Civilian Personnel Policy
agreed with the recommendation. For the complete text of the Army’s comments,
see the Management Comments section of the report.

       2. Require the DoD Civilian Personnel Management Service or a
designee to verify progress reported by the Military Departments and the
Defense agencies in the Fourth Estate with the supporting documentation to
ensure the accuracy of the reported progress associated with the DoD
Restructuring Plan before reporting the status of the initiatives to the Office
of Management and Budget.

Principal Deputy Under Secretary of Defense for Personnel and Readiness
Comments. The Principal Deputy nonconcurred, stating that the chain of
command within each Military Department and Defense agency approves their
progress in meeting human capital initiatives before they report their progress to
the DoD Civilian Personnel Management Service. Further, he stated that DoD
Civilian Personnel Management Service would have to assume an audit role to
implement the recommendation and did not have the personnel for such a
responsibility. As an alternative, the Principal Deputy stated that the DoD
Civilian Personnel Management Service would provide written guidance to the
Military Departments and the Defense agencies at a meeting on March 31, 2004.
The written guidance would discuss the type and sufficiency of supporting
documentation required to substantiate reported workforce restructuring progress.
Further, the Principal Deputy stated that the DoD Civilian Personnel Management
Service would continue to work with the Military Departments and the Defense
agencies on the quality of their workforce restructuring plan submissions and
would perform random reviews of the supporting documentation before
submitting the June 2004 Workforce Restructuring Plan.




                                    10
Army Comments. Although not required to comment, a representative of the
Office of the Army Assistant Deputy Chief of Staff for Civilian Personnel Policy
agreed with the recommendation.

Audit Response. The alternative action that the Principal Deputy Under
Secretary of Defense for Personnel and Readiness has taken and plans to take
satisfies the intent of the recommendation.




                                   11
Appendix A. Scope and Methodology
   We reviewed documentation dated from May 2001 to July 2003. To accomplish
   the audit objective, we reviewed:

         •   the strategic management of human capital initiative portion of the
             Executive Branch Management Scorecard, December 31, 2002;

         •   the DoD Civilian Human Resources Strategic Plan 2002-2008,
             including:

                − Addendum A, Office of Management and Budget (OMB)
                  Scorecard Cascade;

                − Addendum B, Human Resources Strategic Plan Goals;

                − Draft Annex A, FY 2002 Annual Report; and

                − Draft Annex B, FY 2003 Year of Execution Plan.

         •   the list of DoD performance indicators and measures scheduled for
             completion in FY 2002;

         •   Office of the Secretary of Defense, Military Departments, and Defense
             agencies documentation to support DoD performance indicators and
             measures reported as completed in FY 2002;

         •   the list of DoD performance indicators and measures completed in the
             first quarter of FY 2003;

         •   Office of the Secretary of Defense, Military Departments, and Defense
             agencies documentation to support DoD performance indicators and
             measures recorded as completed in the first quarter of FY 2003;
         •   the DoD Restructuring Plan, February 12, 2002;

         •   the update to the DoD Restructuring Plan, June 26, 2003;

         •   Military Department and Defense agency documentation to support
             DoD reported progress for the major headquarters reductions and
             planned reorganization initiatives contained in the June 26, 2003,
             update to the DoD Restructuring Plan;

         •   Office of Management and Budget Circular No. A-11, “Preparation,
             Submission, and Execution of the Budget,” revised July 25, 2003,
             Part 6, “Preparation and Submission of Strategic Plans, Annual
             Performance Plans, and Annual Program Performance Reports;” and

         •   Office of Management and Budget Bulletin No. 01-07, “Workforce
             Planning & Restructuring,” May 8, 2001.

                                      12
           In addition, we interviewed cognizant personnel in the Offices of the Under
           Secretary of Defense for Personnel and Readiness; the Assistant Secretary of the
           Army for Manpower and Reserve Affairs; the Deputy Assistant Secretary of the
           Navy for Civilian Human Resources; the Air Force Deputy Chief of Staff for
           Personnel; the Washington Headquarters Services, including selected Fourth
           Estate organizations; the Office of Management and Budget; and the Office of
           Personnel Management.

           To further accomplish the audit objective, we judgmentally selected the first
           two initiatives, major headquarters reductions and planned reorganizations, in the
           June 26, 2003, update to the DoD Restructuring Plan, for review. To determine
           the adequacy of the Military Departments and Defense agencies supporting
           documentation associated with the reported progress in the June 26, 2003, update
           to the DoD Restructuring Plan, we contacted the following individuals and
           organizations:

                    •    the performance management coordinator for the Army in the Office
                         of the Assistant Secretary of the Army for Manpower and Reserve
                         Affairs;

                    •    the performance management coordinator for the Navy in the Office of
                         the Deputy Assistant Secretary of the Navy for Civilian Human
                         Resources, including the Assistant Secretary of the Navy (Financial
                         Management and Comptroller), and the Commander, Naval Reserve
                         Force;*

                    •    the performance management coordinator for the Air Force in the
                         Office of the Air Force Deputy Chief of Staff for Personnel; and

                    •    the performance management coordinator for the Fourth Estate,
                         Washington Headquarters Services, and Defense agency reporting
                         coordinators in the Defense Advanced Research Projects Agency, the
                         Defense Commissary Agency, the Defense Contract Management
                         Agency, the Defense Finance and Accounting Service, the Defense
                         Information Systems Agency, and the Defense Security Service.

           Although the December 31, 2002, Executive Branch Management Scorecard
           included initiatives for military recruitment, retention, and separation of
           personnel, DoD did not report progress for these areas in the scorecard.
           Therefore, we did not select those initiatives for review during this audit. Further,
           we reviewed three prior Executive Branch Management Scorecards,
           September 30, 2002; June 30, 2002; and May 8, 2002, and determined that no
           progress was reported on the scorecards for human capital initiatives related to the
           Military Departments.


*
    The Office of the Assistant Secretary of the Navy (Financial Management and Comptroller) was selected
    because it provided documentation on major headquarters reduction. Further, although the Offices of the
    Chief of Naval Education and Training, and the Commander, U.S. Atlantic Fleet, also reported progress
    in meeting the planned reorganization initiative, we selected the Office of the Commander, Naval Reserve
    Force for review because it reported the most progress for that initiative.


                                                      13
    We performed this audit from February 2003 through March 2004 in accordance
    with generally accepted government auditing standards. We did not review the
    management control program because the audit focused on the reporting of
    selected performance indicators and measures established to accomplish DoD
    human capital goals. Our scope was limited to the adequacy of DoD
    documentation supporting the accomplishment of selected performance indicators
    and measures in the strategic management of human capital initiative portion of
    the Executive Branch Management Scorecard, December 31, 2002; and the June
    2003 update to the DoD Restructuring Plan.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    to perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD strategic human capital high-risk area.

Prior Coverage
    During the last 5 years, the General Accounting Office has issued numerous reports
    addressing DoD strategic management of human capital; however, none of the
    reports addressed the adequacy of DoD supporting documentation for DoD progress
    reported to the Office of Management and Budget. Unrestricted General
    Accounting Office reports can be accessed at http://www.gao.gov/.




                                        14
Appendix B. Glossary
           Executive Agency or Department. An Executive agency or department is
           defined as an Executive department, a Government Corporation, and an
           independent establishment by section 105, title 5, United States Code, but does
           not include the Federal Bureau of Investigation, the Central Intelligence Agency,
           the Defense Intelligence Agency, the National Geospatial-Intelligence Agency,1
           and the National Security Agency.

           Citizen-Centered. Citizen-centered means that as little distance as possible
           exists between the citizens and decision makers. To decrease the distance
           between citizens and Cabinet members, the Administration plans to compress the
           Federal hierarchy, reduce the number of layers in the upper echelons of
           Government, and use workforce planning to help agencies redistribute higher-
           level positions to front-line, service-delivery positions that interact with citizens.

           Evidence Book. The “evidence book” is a binder that the DoD Civilian
           Personnel Management Service, Office of the Under Secretary of Defense for
           Personnel and Readiness, maintains of all documentation to support DoD reported
           progress in meeting the seven goals contained in the DoD Civilian Human
           Resources Strategic Plan.

           Fourth Estate Organizations. Fourth Estate organizations are listed in
           Appendix D. The Washington Headquarters Services reports the Fourth Estate
           organizations’ progress in meeting the President’s Management Agenda
           initiatives to the Office of the Under Secretary of Defense for Personnel and
           Readiness.

           General Goals. General goals are included in the strategic plan. A general goal
           defines how an agency will carry out its mission over a period of time. The goal
           is expressed in a manner that allows a future assessment to be made of whether
           the goal was or is being achieved. The goal may be of a programmatic, policy, or
           managemental in nature. General goals are typically outcome-type goals.
           Performance Indicator. A performance indicator is a particular value or
           characteristic used to measure a DoD output or outcome. Output is a description
           of the level of activity or effort that will be produced or provided over a period of
           time or by a specific date. Outcome is a description of the intended result, effect,
           or consequence that will occur from carrying out a program or activity.

           Performance Measure. A performance measure is a performance goal or
           performance indicator.

           Performance Management Coordinator. The performance management
           coordinator is the designated individual within each of the Military Departments
           and Washington Headquarters Services,2 who is responsible for reporting the
1
    Formerly the National Imagery and Mapping Agency.
2
    The Washington Headquarters Services reports the Fourth Estate organizations’ progress in meeting the
    President’s Management Agenda.


                                                      15
component’s progress in meeting the President’s Management Agenda initiatives
to the Office of the Under Secretary of Defense for Personnel and Readiness.

Standards for Success. The standards for success contain discrete outcomes that
Executive agencies and departments strive to meet. The standards for success are
strategic alignment, workforce planning and deployment, leadership and
knowledge management, results-oriented performance culture, talent, and
accountability.




                                   16
Appendix C. Navy Claimants
The following is a list of the 23 Navy claimants:

Assistant For Administration/                       Naval Facilities Engineering Command
Under Secretary of the Navy
                                                    Naval Meteorology and Oceanography
Bureau of Medicine and Surgery                      Group

Bureau of Naval Personnel                           Naval Security Group

Chief of the Naval Reserve                          Naval Supply Systems Command

Commander, Atlantic Fleet                           Naval Systems Management Agency

Commander, Naval Forces Europe                      Navy Network Operations Command

Commander, Naval Installations                      Office of Naval Intelligence

Commander, Pacific Fleet                            Office of Naval Research

Immediate Office of the Chief of                    Space and Naval Warfare Systems
Naval Operations                                    Command

Military Sealift Command                            Special Warfare Command

Naval Air Systems Command                           Strategic Systems Programs

Naval Education and Training
Command




                                            17
Appendix D. Fourth Estate Organizations
   The following is a list of the 14 Fourth Estate organizations:

          •   Defense Advanced Research Projects Agency

          •   Defense Commissary Agency

          •   Defense Contract Audit Agency

          •   Defense Contract Management Agency

          •   Defense Finance and Accounting Agency

          •   Defense Information Systems Agency

          •   Defense Logistics Agency

          •   Defense Security Cooperation Agency

          •   Defense Security Service

          •   Defense Threat Reduction Agency

          •   Inspector General of the Department of Defense

          •   Missile Defense Agency

          •   Office of Economic Adjustment

          •   Office of the Secretary of Defense




                                        18
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Assistant Secretary of the Army for Manpower and Reserve Affairs
Auditor General, Department of the Army
Army Assistant Deputy Chief of Staff for Civilian Personnel Policy

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy for Manpower and Reserve Affairs
Deputy Assistant Secretary of the Navy for Civilian Human Resources
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Air Force Deputy Chief of Staff for Personnel
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Advanced Research Projects Agency
Director, Defense Commissary Agency
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Defense Security Cooperation Agency
Director, Defense Security Service


                                          19
Other Defense Organizations (cont’d)
Director, Defense Threat Reduction Agency
Director, Missile Defense Agency
Director, Office of Economic Adjustment
Director, Washington Headquarters Services

Non-Defense Federal Organizations
Office of Management and Budget
Office of Personnel Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                         20
___________________________________________________________________



Under Secretary of Defense for Personnel and
Readiness Comments




                             21
               ___________________________________________________________________




Final Report
 Reference




Page 4




                                            22
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 9




                             23
___________________________________________________________________




                                24
___________________________________________________________________



Department of the Army Comments




                                25
Team Members
The Acquisition Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

John E. Meling
Jack D. Snider
James A. Hoyt
Alice F. Carey
Mason A. Kaur
Tracey E. Dismukes
Jacqueline N. Pugh
